SIGAR                           Special Inspector General for
                                 Afghanistan Reconstruction




                                         SIGAR 14-94 Financial Audit




      USAID’s Afghanistan Social Outreach Program:
      Audit of Costs Incurred by AECOM International
      Development, Inc.




                                           SEPTEMBER
                                                    2014
SIGAR 14-94-FA/ASOP
                                                     September 2014



SIGAR
                                                     USAID’s Afghanistan Social Outreach Program: Audit of Costs
                                                     Incurred by AECOM International Development, Inc.
                                                     SIGAR 14-94-FA

Special Inspector General for                        WHAT THE AUDIT FOUND
Afghanistan Reconstruction                           Kearney & Company P.C. (Kearney) identified one material internal control
                                                     weakness, two significant deficiencies in internal controls, and two instances of
WHAT THE AUDIT REVIEWED                              noncompliance with contract terms. Specifically, Kearney found that AECOM
                                                     International Development, Inc.’s (AECOM) internal processes did not prevent
On July 5, 2009, the U.S. Agency for                 documentation loss or provide for backup records of transactions for the
International Development (USAID) signed a           Afghanistan Social Outreach Program. These transactions involved payroll, other
contract with AECOM International                    direct costs, program costs, subcontracts, travel, and per diem costs. AECOM could
Development, Inc. (AECOM) to establish               not provide sufficient documentation of management reviews and approvals related
community councils (shuras) at the district          to subcontracts and other direct costs. It was also not able to provide sufficient
level and promote communication and                  documentation of approval for purchase of non-expendable property by the U.S.
collaboration between the Afghan government          Agency for International Development (USAID), or provide or retain sufficient
and communities. This support to the                 documentation related to the disposition of the non-expendable property.
Afghanistan Social Outreach Program (ASOP)
was intended to expand the role of the               As a result, Kearney identified $455,084 in unsupported costs (costs not supported
traditional shuras, overcome corruption, and         by sufficient documentation to allow auditors to determine their accuracy and
increase participation in the political process      allowability). Kearney did not find any ineligible costs (costs prohibited by the
by women, youth and other marginalized               contract, applicable laws, or regulations).
groups.                                                       Category           Questioned Costs Total       Ineligible   Unsupported
SIGAR’s financial audit, performed by Kearney         Direct Labor                              $213,303             $0          $213,303
& Company (Kearney), reviewed $34,458,220             Travel and Per Diem                         $1,602             $0            $1,602
in expenditures charged to the ASOP contract          Other Direct Costs                        $239,896             $0          $239,896
from July 5, 2009, through January 31, 2012.          Program Costs                                     $10          $0              $10
The objectives of the audit were to (1) identify      Sub-Contracts                                 $273             $0             $273
and report on significant deficiencies or             Total                                     $455,084             $0          $455,084
material weaknesses in AECOM’s internal
controls related to the contract; (2) identify and   In addition, Kearney also identified six findings from a prior audit report that could
report on instances of noncompliance with the        have a material effect on AECOM’s Special Purpose Financial Statement. Because
terms of the award and applicable laws and           AECOM did not provide any evidence that corrective actions had been taken,
regulations, including any potential fraud or        Kearney concluded that AECOM has not taken adequate corrective action to address
abuse; (3) determine and report on whether           these prior audit findings.
AECOM has taken corrective action on prior
                                                     Kearney issued a disclaimer of opinion on AECOM's Special Purpose Financial
findings and recommendations; and
                                                     Statement, meaning that Kearney was prevented from expressing an opinion on the
(4) express an opinion on the fair presentation      Statement's fair presentation and whether it was free from material misstatement.
of AECOM’s Special Purpose Financial
                                                     Specifically, although AECOM signed a representation letter, the letter did not
Statement. See Kearney’s report for the
                                                     address required representations on which Kearney would rely in rendering an
precise audit objectives.                            opinion. For example, AECOM did not confirm its responsibility for the system of
In contracting with an independent audit firm        internal controls related to the preparation and fair presentation of the Statement.
and drawing from the results of a contracted
audit, SIGAR is required by auditing standards        WHAT SIGAR RECOMMENDS
to provide oversight of the work performed.
                                                      Based on the results of the audit, SIGAR recommends that the Mission Director
Accordingly, SIGAR reviewed Kearney’s audit
                                                      for USAID/Afghanistan:
results and found them to be in accordance
with generally accepted government auditing           1. Determine the allowability of and recover, as appropriate, $455,084 in
standards.                                                 questioned costs identified in the report.
                                                      2. Advise AECOM to address the report’s three internal control findings.
                                                      3. Advise AECOM to address the report’s two noncompliance findings.

       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
September 3, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by AECOM International Development, Inc.
(AECOM) under a U.S. Agency for International Development (USAID) contract to provide support for the
Afghanistan Social Outreach Program.1 The audit, performed by Kearney & Company P.C., covered the period
July 5, 2009, through January 31, 2012, and expenditures of $34,458,220. Based on the results of the audit,
SIGAR recommends that the Mission Director for USAID/Afghanistan:

      1. Determine the allowability of and recover, as appropriate, $455,084 in questioned costs identified in
         the report.
      2. Advise AECOM to address the report’s three internal control findings.
      3. Advise AECOM to address the report’s two noncompliance findings.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction




(F-028)




1   USAID contract number 306-DFD-I-03-05-00125-00.
OFFICE OF THE SPECIAL INSPECTOR
   GENERAL FOR AFGHANISTAN
        RECONSTRUCTION

   AECOM International Development, Inc.


        Financial Audits of Costs Incurred under
      Contract Number 306-DFD-I-03-05-00125-00
          Afghanistan Social Outreach Program
    (for the Period July 5, 2009 to January 31, 2012)



                                June 2, 2014




                                      Point of Contact:
                                   David Zavada, Partner
                                 1701 Duke Street, Suite 500
                                    Alexandria, VA 22314
                             703-931-5600, 703-931-3655 (fax)
                                  dzavada@kearneyco.com
       Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                            AECOM International Development, Inc.
                                                                                                       Audit Report




TRANSMITTAL LETTER

July 17, 2014



Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, VA 22202


To the Special Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) is pleased
to submit this Audit Report, as required under Contract Number GS-23F-0092J, Task
ID05130083004, for AECOM International Development, Inc. (AECOM). The Audit Report is
in regard to AECOM Contract Number 306-DFD-I-03-05-00125-00 for Afghanistan Social
Outreach Program (ASOP) for July 5, 2009 to January 31, 2012.

We appreciate the opportunity to provide you with our report. When preparing the report, we
considered comments, feedback, and interpretations provided by the Office of the Special
Inspector General for Afghanistan Reconstruction (SIGAR), both orally and in writing,
throughout the audit Planning, Fieldwork, and Reporting Phases of this engagement.

Thank you for providing us with the opportunity to assist SIGAR and conduct the financial audit
of the contract noted above. If any additional information is needed, please do not hesitate to
contact me at (703) 931-5600.

Sincerely,




David Zavada, CPA, Partner
Kearney & Company, P.C.
                                                                    Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                                  AECOM International Development, Inc.
                                                                                                                             Audit Report


                                                  TABLE OF CONTENTS
                                                                                                                                    Page #


                                                                      	
EXECUTIVE SUMMARY ...........................................................................................................1 
  Background .................................................................................................................................1 
  Objectives, Scope, and Methodology ........................................................................................1 
  Summary of Results ...................................................................................................................3 
  Summary of AECOM’s Response to Findings ........................................................................5

SPECIAL PURPOSE FINANCIAL STATEMENT ...................................................................6 
MANAGEMENT’S NOTES TO THE SPECIAL PURPOSE FINANCIAL STATEMENT .7 
AUDITOR’S NOTES TO THE QUESTIONED COSTS ..........................................................8 
INDEPENDENT AUDITOR’S REPORT .................................................................................10 
INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ...............................12 
INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE..............................................14 
SCHEDULE OF FINDINGS AND RESPONSES ....................................................................16 
APPENDIX A – PRIOR AUDIT FINDINGS AND STATUS .................................................29 
                                                 Office of the Special Inspector General for Afghanistan Reconstruction
                                                                               AECOM International Development, Inc.
                                                                                                          Audit Report


                                   EXECUTIVE SUMMARY

Background

The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted
Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) to perform
an audit of the Special Purpose Financial Statement (SPFS) of a task order awarded to
AECOM International Development, Inc. (AECOM) by the Unites States Agency for
International Development (USAID) for the Afghanistan Social Outreach Program (ASOP),
specifically Task Order (Contract) No. 306-DFD-I-03-05-00125-00 (referred to as “task order,”
“contract,” and “award” in this report).

Per the task order, USAID contracted AECOM to establish mechanisms for ongoing
communication and collaboration between the Afghan government and communities through the
creation of community councils at the district level. This program intended to mobilize
community support for security and development and communicate needs and concerns to the
Afghan government. The objective was to move Afghanistan towards democracy through an
expansion of the role of the traditional shuras, overcoming corruption and obstacles to increase
the participation of women, youth, and other marginalized groups. This contract came under an
Indefinite Quantity Contract for International Decentralization/Local Governance Strengthening
Technical Assistance.

The ASOP contract was awarded to AECOM for the period of July 5, 2009 through
January 4, 2011. The contract was a fixed daily rate for U.S. Expatriates, Time and Materials
contract, with an initial amount of $5,829,331, covering the base and all option periods.
Subsequent modifications increased the funding to $34,458,220 and extended the period of
performance to January 31, 2012.

Objectives, Scope, and Methodology

Objectives

The specific audit objectives of this financial statement audit are to:

      Express an opinion on whether the SPFS for the award presents fairly, in all material
       respects, the revenues received, costs incurred, items directly procured by the U.S.
       Government, and balances for the period audited, in conformity with the terms of the
       awards and generally accepted accounting principles or other comprehensive basis of
       accounting
      Evaluate and obtain a sufficient understanding of the audited entity’s internal control
       related to the award and assess control risk; and identify and report on significant
       deficiencies, including material internal control weaknesses
      Perform tests to determine whether the audited entity complied, in all material respects,
       with the award’s requirements and applicable laws and regulations; and identify and
       report on instances of material non-compliance with terms of the award and applicable
       laws and regulations, including potential fraud or abuse that may have occurred


                                                  1
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


       Determine and report on whether the audited entity has taken adequate corrective action
        to address findings and recommendations from previous engagements that could have a
        material effect on the SPFS.

Scope

Our audit of the SPFS covered the following USAID contract awarded to AECOM:

       No. 306-DFD-I-03-05-00125-00: ASOP, for the period of July 5, 2009 through
        January 31, 2012.

Our review of indirect costs was limited to determining whether the indirect rates per the
Negotiated Indirect Cost Rate Agreement were properly applied to the direct costs, subsequently
reported on the SPFS, correctly calculated, and appropriately charged to the U.S. Government in
accordance with the agreement. The scope of our audit does not include procedures to verify the
material accuracy of AECOM’s indirect cost rates and fixed fee rates. These rates are subject to
USAID oversight through an incurred cost audit. Therefore, such information has not been
subject to the auditing procedures beyond those designed to test the application of those
unaudited rates in the preparation of the SPFS; accordingly, we do not express an opinion or
provide any assurance on the rates.

Our audit was conducted for the purpose of forming an opinion on the SPFS in accordance with
the SPFS presentation requirements in Note 1. Therefore:

       The Transmittal Letter and the information presented in the Table of Contents, Executive
        Summary, and Management’s Responses to the findings are presented for the purpose of
        additional analysis and are not required parts of the SPFS. Such information has not been
        subject to the auditing procedures applied during the audit of the SPFS, and accordingly,
        we do not express an opinion or provide any assurance on it
       The scope of our audit does not include procedures to verify the efficacy of the ASOP
        program, and accordingly, we do not express an opinion or provide any assurance on it.

As discussed in the Summary of Results below, the scope of our audit was limited as
management did not provide the requested written representations. Written representations from
management ordinarily confirm representations explicitly or implicitly given to the auditor,
indicate and document the continuing appropriateness of such representations, and reduce the
possibility of misunderstanding concerning the matters that are the subject of the representations.

Methodology

An audit includes:

       Obtaining an understanding of AECOM’s internal controls related to the award, assessing
        control risk, and determining the extent of audit testing needed based on the control risk
        assessment



                                                 2
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


      Examining, on a test basis, evidence supporting the amounts and disclosures presented in
       the SPFS.

Our audit approach enables us to redefine the audit scope as necessary, and consists of the
following four phases:

Planning Phase: Kearney developed an understanding of AECOM and the SPFS by performing
the following:

      Analyzing and comparing booked to billed costs
      Reviewing for changes in estimation and allocation methodologies and/or processes
      Reviewing the financial statements and footnotes
      Holding preliminary discussions with AECOM personnel concerning their methods and
       processes
      Identifying significant costs
      Reviewing indirect rate applications
      Identifying significant sub-contracts.

Kearney also obtained the status of the corrective actions taken based on prior audits for follow-
up in subsequent phases.

Internal Control Understanding/Evaluation Phase: Kearney performed procedures to obtain a
sufficient understanding of the controls and compliance requirements in place over each of the
cost categories to be tested. The results of this phase were considered in determining the nature
and extent of procedures to be performed in the Testing Phase.

Testing Phase: This phase consisted of validating transaction populations and applying various
sampling techniques, obtaining sufficient appropriate audit evidence that provides reasonable
assurance as to whether the SPFS is free of material misstatement, and determining whether
costs claimed are allowable, allocable, and reasonable. This phase also consisted of testing costs
incurred for compliance with the contract and applicable laws and regulations that could have an
impact on the SPFS.

Reporting Phase: In this phase, Kearney provided AECOM’s management with an appropriate
Management’s Representation Letter and performed wrap-up procedures designed to assess and
confirm the completion of the audit.

Summary of Results

Opinion

Kearney issued a disclaimer of opinion on the SPFS for ASOP. This disclaimer was a result of
AECOM not providing required management representations. AECOM signed a representation
letter indicating that it has provided us with all relevant information and is responsible for the
contents of the SPFS; however, it did not include other required representations requested upon
which we would base our opinion, such as their responsibility for the design, implementation,


                                                 3
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                              AECOM International Development, Inc.
                                                                                                         Audit Report


and maintenance of internal control relevant to the preparation and fair presentation of financial
statements that are free from material misstatement, whether due to fraud or error; that the SPFS
was fairly stated in accordance with a comprehensive basis of accounting other than generally
accepted accounting principles; and that all transactions have been recorded and are reflected in
the financial statements; among others. In the absence of such representations, the scope of our
work was not sufficient to enable us to express an opinion on the SPFS. See also the
Independent Auditor’s Report section of this document.

Questioned Costs

There are two categories of questioned costs—ineligible and unsupported. Ineligible costs are
those costs that are deemed unallowable in accordance with the terms of the contract and
applicable laws and regulations. Unsupported costs are those costs for which AECOM was
unable to provide sufficient supporting documentation, including evidence of proper approvals,
for Kearney to determine the accuracy and allowability of the costs. Kearney did not identify
any ineligible costs. Kearney noted a total of $455,084 in unsupported costs, which with the
exception of Direct Labor are reported at the unburdened amounts, as shown in Table 1 below.

                                Table 1 – Total Questioned Costs

                                      Questioned            Schedule of Findings and Responses
          Cost Category
                                      Amount ($)                         Reference
 Direct Labor                             213,303                   ASOP NFR 2014-1
 Travel and Per Diem                         1,602                  ASOP NFR 2014-1
 ODCs                                     239, 896                  ASOP NFR 2014-1
                                                                    ASOP NFR 2014-2
                                                                    ASOP NFR 2014-3
                                                                    ASOP NFR 2014-4
 Program Costs                                   10                 ASOP NFR 2014-1
 Sub-Contracts                                  273                 ASOP NFR 2014-2
 Total Questioned Costs                     455,084

Internal Control Findings

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, where there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. Government Auditing
Standards requires auditors to report only material weaknesses and significant deficiencies in the
Report on Internal Control. A summary of reportable internal control findings is as follows:




                                                 4
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


Kearney reported one material weakness as follows:

   1. Inadequate Controls over Document Retention (ASOP NFR 2014-1)

Kearney reported two significant deficiencies as follows:

   1. Ineffective Controls over Payments (ASOP NFR 2014-2)
   2. Ineffective Review for Insurance Premiums Incurred (ASOP NFR 2014-3)

Compliance Findings

As part of our audit of AECOM’s SPFS, we performed tests to determine compliance with
provisions of the contract and other laws and regulations that have a direct and material effect on
the SPFS. We identified the following instances of non-compliance:

   1. Non-Compliance with Contract Clause (ASOP NFR 2014-4)
   2. Non-Compliance with Federal Acquisition Regulations (ASOP NFR 2014-5)

Review of Prior Findings and Recommendations

Kearney identified six findings stated in one prior audit report that could have a material effect
on the SPFS. Kearney inquired about whether AECOM, as a party to the joint venture audited in
the prior audit report, had implemented corrective actions plans (CAPs) to address the findings.
AECOM did not provide any related CAPs. Per our review of the prior year report, the joint
venture management disagreed with all findings. Kearney noted that management is awaiting a
determination from the contracting officer prior to implementing corrective action. Therefore,
Kearney concludes that AECOM, as a party to the joint venture, has not taken adequate
corrective action to address the prior audit findings, which could have a material effect on the
SPFS. Further, during the course of our audit, Kearney identified one prior audit finding as a
repeat finding, which we reported in ASOP NFR 2014-3. See Appendix A of this report for a
summary of the prior audit findings and the status of each.

Summary of AECOM’s Response to Findings

AECOM provided responses to the findings in the Schedule of Findings and Responses under the
Management Response header of each finding. These responses were provided directly by
AECOM management and have not been altered or updated in any way by Kearney. Kearney’s
evaluation of AECOM’s responses immediately follows each response.




                                                 5
                                        SPECIAL PURPOSE FINANCIAL STATEMENT

                      AECOM International Development, Inc.                             Auditor’s Questioned Costs
  Special Purpose Financial Statement for Costs Incurred under ASOP Contract No.                  Note A
                             306-DFD-I-03-05-00125-00
               For the period of July 5, 2009 through January 31, 2012
                                                Budget        Actual
                                                  ($)           ($)       Notes     Ineligible   Unsupported    Auditor’s
                                               (Audited)    (Audited)   (Audited)      ($)           ($)         Notes

Amounts paid by the U.S. Government                                34,458,220               0              0

Costs Incurred by Budget Category:                                              5
 Direct Labor                                     10,588,707       10,670,957               0         213,303      B
 Travel and Per Diem                               1,055,084        1,068,997               0           1,602      C
 Allowances                                          663,327          669,683               0               0
 Other Direct Costs                               14,778,311       14,730,415               0         239,896      D
 Program Costs                                       880,469          973,195               0              10      E
 Subcontracts                                      3,682,788        3,423,785               0             273      F
 General & Administrative                          2,809,534        2,921,188               0               0
Total Costs Incurred                              34,458,220       34,458,220               0         455,084

Amounts Paid by the U. S. Government
over/(under) lesser of costs incurred and
fees or project budget                                                     0               (0)      (455,084)

The accompanying notes are an integral part of this financial statement.




                                                                   6
                      AECOM International Development, Inc.
              Management’s Notes to the Special Purpose Financial Statement
                                       (Audited)


Note 1. Basis of Presentation
The Special Purpose Financial Statement (the “Statement”) includes revenue and costs incurred
under contract number 306-DFD-I-03-05-00125-00 with the United States Agency for
International Development (USAID) Afghanistan Social Outreach Program (ASOP) for the
period from July 5, 2009 to January 31, 2012. ASOP is a mechanism established to work closely
with the Independent Directorate of Local Governance to strengthen communication and
collaboration between the government and communities, laying a base for permanent democratic
authorities and capacities at the sub-national level. The information in this Statement is
presented in accordance with the requirements specified by the Office of the Special Inspector
General for Afghanistan Reconstruction. Therefore, some amounts presented in this Statement
may differ from amounts presented in the basic financial statements.

Note 2. Basis of Accounting
The Statement reflects the revenues received and expenses incurred under the contract. It has
been prepared on the accrual basis of accounting. Under the accrual basis of accounting,
revenues are recognized when earned and expenses are recognized when incurred.

Note 3. Currency Used
All amounts presented are shown in United States Dollars (USD).

Note 4. Foreign Currency Conversion Method
Expenses are translated into USD at the weighted average monthly rate which is calculated based
on monthly transfers from the USD bank account to the local currency bank account. Currency
fluctuations between monthly rates are not included as an expense to the project.

Note 5. Costs Incurred by Budget Category
The budget line items referenced on the Statement are shown against the latest amendment of the
contract budget per Modification number 12 as of October 26, 2011. Incurred and billed costs to
USAID are shown as of Bill No. 33 dated February 9, 2012. AECOM invoices used the
Negotiated Indirect Cost Rate Agreement (NICRA) rates based on the provisional rates approved
at that time period. As of May 2014, AECOM has not received final NICRA rates for the years
of the project in question to enable us to submit our final invoice. The contractor was obligated
not to exceed the total amount of the contract and was not required to seek approvals for each
budget category.

Note 6. Program Status
The project is closed.




                                                7
                            Auditor’s Notes to the Questioned Costs


In addition to the Notes to the Special Purpose Financial Statement presented above associated
with the Afghanistan Social Outreach Program (ASOP) Special Purpose Financial Statement
(SPFS), which are the responsibility of AECOM International Development, Inc.’s (AECOM)
management and identified with numerical notations, Kearney & Company, P.C. (referred to as
“Kearney,” “we,” and “our” in this report) has included the following alphabetical notations to
facilitate understanding.

Note A. Questioned Costs

Questioned costs are those costs that are questioned by the auditor because of an audit finding
potentially related to:

      A violation or possible violation of a provision of law, regulation, contract, grant,
       cooperative agreement, or other agreement or document governing the use of Federal
       funds
      Where, at the time of the audit, the costs are not supported by adequate documentation
      Where the costs incurred appear unreasonable and do not reflect the actions a prudent
       person would take in the circumstances.

Questioned costs identified by the auditor are presented in the SPFS in two categories—
unsupported and ineligible costs. Unsupported costs are those costs that, after a full review of all
documentation provided, the auditor has concluded are inadequately or insufficiently
documented to determine the allowability and accuracy of costs. Ineligible costs are those that
are explicitly questioned because they are unreasonable, prohibited by the audited contract or
applicable laws and regulations, or not award-related.

Questioned costs are unburdened, with the exception of Direct Labor, as each related line item is
unburdened, given the contractor separately reported indirect costs on the General and
Administrative line item. Questioned costs associated with Direct Labor are the costs that are
billed and reimbursed, including fringe benefits and allowances associated with the labor costs.

The questioned costs reported on the SPFS are the actual dollars questioned as a result of our
testing procedures, in United States Dollars, without any application of projections. The
questioned costs are based on the results of our fieldwork, which were subject to a scope
limitation. These results should be read in conjunction with the Independent’s Auditor’s Report.




                                                 8
Notes B through F. Explanation of Questioned Costs

                           Table 2 – Explanation of Questioned Costs

                                                                       Schedule of Findings and
Note    Line Item            Questioned Cost Description
                                                                         Responses Reference
 B     Direct           Unsupported costs of $213,303 due to no       ASOP NFR 2014-1
       Labor             supporting documentation provided.
 C     Travel and       Unsupported costs of $1,602 due to a lack     ASOP NFR 2014-1
       Per Diem          of supporting documentation.
 D     Other            Unsupported costs of $98,773 due to lack      ASOP NFR 2014-1
       Direct            of supporting documentation
       Costs            Unsupported costs of $17,109 due to           ASOP NFR 2014-2
                         ineffective payment controls
                        Unsupported costs of $112,114 due to          ASOP NFR 2014-3
                         insufficient support for insurance
                         premiums
                        Unsupported costs of $11,900 due to non-      ASOP NFR 2014-4
                         compliance with a contract clause.
 E     Program          Unsupported costs of $10 due to a lack of     ASOP NFR 2014-1
       Costs             supporting documentation provided.
 F     Sub-             Unsupported costs of $273 due to              ASOP NFR 2014-2
       Contracts         ineffective payment controls.

Note G: Auditor’s Note to Management’s Note 2
Per management’s Note 2, the SPFS has been prepared on the accrual basis of accounting, which
lends to a basis within generally accepted accounting principles. Based on the engagement letter
at the beginning of the audit, AECOM management agreed that they are responsible to ensure
“transactions are properly recorded, processed, and summarized to permit the preparation and
fair presentation of the [SPFS] in conformity with the selected [Other Comprehensive Basis of
Accounting]...” The confirmation of the basis is subject to the limitation of scope as discussed in
the Independent Auditor’s Report, as management did not provide the related requested
representation.




                                                 9
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


                          INDEPENDENT AUDITOR’S REPORT

To the Chief Operating Officer and Director of Finance of AECOM International Development,
Inc. and the Special Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) was
engaged to audit the Special Purpose Financial Statement (SPFS or financial statement) of
AECOM International Development, Inc. (AECOM) for Contract Number 306-DFD-I-03-05-
00125-00, Afghanistan Social Outreach Program for the period of July 5, 2009 through January
31, 2012 (herein referred to as the ASOP contract). The SPFS and accompanying footnote
disclosures are the responsibility of AECOM’s management. Our responsibility is to express an
opinion on the SPFS based on our audit.

The accompanying SPFS was prepared for the purpose of complying with financial statement
presentation requirements for the Office of the Special Inspector General for Afghanistan
Reconstruction (SIGAR) and reporting the amounts paid by the U.S. Government, costs incurred
and reimbursed, and resulting amounts paid by the U.S. Government over/(under) the lesser of
costs incurred and fees or project budget for the ASOP contract between AECOM and the United
States Agency for International Development (USAID), as discussed in Note 1. Further, as
described in Note 2 and Auditor’s Note G, the SPFS for this contract was prepared using a
comprehensive basis of accounting other than generally accepted accounting principles.

AECOM did not provide required management representations upon which we would base our
opinion. In the absence of such representations, the scope of our work was not sufficient to
enable us to express an opinion on the SPFS.

Because of the significance of the matter described in the preceding paragraph, the scope of our
work was not sufficient to enable us to express, and we do not express, an opinion on the Special
Purpose Financial Statement.

In accordance with Government Auditing Standards, we have also issued reports, dated
June 2, 2014, on our consideration of AECOM’s internal control over financial reporting (internal
control) and on our tests of its compliance with certain provisions of the contract agreement and
applicable laws and regulations. The purpose of those reports is to describe the scope of our
testing of internal control and compliance with certain provisions of the agreement and applicable
laws and regulations, as well as the results of that testing, and not to provide an opinion on
internal control or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards, and should be considered in assessing the
results of our audit.

                                 *      *       *      *          *




                                               10
This report is intended for the information of AECOM, USAID, and SIGAR, and is not intended
to be and should not be used by anyone other than these specified parties. Financial information
in this report may be privileged. The restrictions of 18 United States Code 1905 should be
considered before any information is released to the public.




Alexandria, Virginia
June 2, 2014




                                               11
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


           INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL

To the Chief Operating Officer and Director of Finance of AECOM International Development,
Inc. and the Special Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) was
engaged to audit the Special Purpose Financial Statement (SPFS or financial statement) of
AECOM International Development, Inc. (AECOM) for Contract Number 306-DFD-I-03-05-
00125-00, Afghanistan Social Outreach Program for the period of July 5, 2009 through
January 31, 2012 (herein referred to as the ASOP contract) and have issued our Independent
Auditor’s Report dated June 2, 2014. Our report states that because of the matters discussed
therein, the scope of our work was not sufficient to enable us to express, and we do not express,
an opinion on the SPFS for the period.

AECOM’s management is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments made by management are required to
assess the expected benefits and related costs of internal control policies and procedures. The
objectives of internal control are to provide AECOM’s management with reasonable, but not
absolute, assurance that the assets are safeguarded against loss from unauthorized use or
disposition; transactions are executed in accordance with AECOM management’s authorization
and in accordance with the terms of the agreements; and transactions are recorded properly to
permit the preparation of the SPFS in conformity with the basis of accounting described in
Note 2 to the SPFS. Because of inherent limitations in internal control, errors or fraud may
nonetheless occur and not be detected. Also, projection of any evaluation of the structure to
future periods is subject to the risk that procedures may become inadequate due to changes in
conditions, or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

In planning and performing our work, Kearney considered AECOM’s internal control over
financial reporting (internal control) by obtaining an understanding of the design effectiveness of
AECOM’s internal controls, determining whether controls had been placed in operation, assessing
the control risk, and performing tests of AECOM’s controls as a basis for designing our auditing
procedures for the purpose of expressing an opinion on the SPFS, and not to provide an opinion
on the internal controls. Accordingly, we do not express an opinion on the effectiveness of
AECOM’s internal control.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in internal control that might be
significant deficiencies or material weaknesses; therefore, there can be no assurance that all
deficiencies, significant deficiencies, or material weaknesses have been identified. However, as
described in the accompanying Schedule of Findings and Responses, we identified certain
deficiencies in internal control that we consider to be material weaknesses or significant
deficiencies.




                                                12
                                                             1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                             PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the one deficiency described in the
accompanying Schedule of Findings and Responses (ASOP NFR 2014-1), to be a material
weakness.

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the two deficiencies described in the Schedule of Findings and
Responses (ASOP NFR 2014-2 and ASOP NFR 2014-3) to be significant deficiencies.

Additionally, AECOM’s management has given its response to the findings presented in our
report. We did not audit AECOM’s response to the findings, and accordingly, we do not express
an opinion on it.

                                  *       *       *      *          *

This report is intended solely for the information and use of AECOM, the United States Agency
for International Development, and the Special Inspector General for Afghanistan
Reconstruction, and is not intended to be and should not be used by anyone other than these
specified parties. Financial information in this report may be privileged. The restrictions of 18
United States Code 1905 should be considered before any information is released to the public.




Alexandria, Virginia
June 2, 2014




                                                 13
                                                            1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                            PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


               INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE

To the Chief Operating Officer and Director of Finance of AECOM International Development,
Inc. and the Special Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) was
engaged to audit the Special Purpose Financial Statement (SPFS or financial statement) of
AECOM International Development, Inc. (AECOM) for Contract Number 306-DFD-I-03-05-
00125-00, Afghanistan Social Outreach Program for the period of July 5, 2009 through
January 31, 2012, (herein referred to as the ASOP contract) and have issued our Independent
Auditor’s Report dated June 2, 2014. Our report states that because of the matters discussed
therein, the scope of our work was not sufficient to enable us to express, and we do not express,
an opinion on the SPFS for the period.

AECOM’s management is responsible for compliance with agreement terms and applicable laws
and regulations.

As part of our procedures, we performed tests of AECOM’s compliance with certain provisions
of agreement terms, and applicable laws and regulations. However, our objective was not to
provide an opinion on overall compliance with such provisions. Accordingly, we do not express
such an opinion.

The results of our tests of compliance with certain provisions of agreement terms and applicable
laws and regulations disclosed two instances of non-compliance, described in the accompanying
Schedule of Findings and Responses (ASOP NFR 2014-4 and ASOP NFR 2014-5) that are
required to be reported under Government Auditing Standards.

Auditors must plan and perform the audit to obtain sufficient appropriate audit evidence for
obtaining reasonable assurance about whether the financial statements are free of material
misstatement (whether caused by error or fraud). The results of our tests of compliance with
certain provisions of agreement terms, and applicable laws and regulations did not disclose any
instances of fraud or abuse. However, our objective was not to provide an opinion on instances
of fraud. Accordingly, we do not express such an opinion.

Additionally, AECOM’s management has given its response to the findings presented in our
report. We did not audit AECOM’s response to the findings, and accordingly, we do not express
an opinion on it.

                                 *       *      *       *          *




                                                14
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


This report is intended solely for the information and use of AECOM, the United States Agency
for International Development, and the Special Inspector General for Afghanistan
Reconstruction, and is not intended to be and should not be used by anyone other than these
specified parties. Financial information in this report may be privileged. The restrictions of 18
United States Code 1905 should be considered before any information is released to the public.




Alexandria, Virginia
June 2, 2014




                                                15
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                            AECOM International Development, Inc.
                                                                                                       Audit Report




                      SCHEDULE OF FINDINGS AND RESPONSES

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) noted five
individual findings that, in the aggregate, resulted in one material weakness, two significant
deficiencies, and two instances of non-compliance. These reportable matters are inclusive of all
questioned costs reported.

                                      Material Weakness

       ASOP NFR 2014-1: Inadequate Controls in Place to Prevent Documentation Loss

Condition: Inadequate AECOM International Development, Inc. (AECOM) internal processes
did not prevent documentation loss or provide for back-up records related to the Afghanistan
Social Outreach Program (ASOP) transactions occurring between July 5, 2009 and
January 31, 2012 resulting in unsupported costs in the unburdened amount of $313,688
($327,742 burdened) and a material weakness, which are described in further detail below. The
dollar values reported in this finding are whole United States Dollars (USD), and the fully
burdened amounts are calculated using the rates per AECOM’s Negotiated Indirect Cost Rate
Agreement (NICRA) and other relevant fees to the contract.

Relevant supporting documentation pertaining to Payroll, Other Direct Costs (ODCs), Program
Costs, and Travel and Per Diem was not provided in the following instances:

       Direct Labor: For the entire month of December 2010 local labor payroll, no
        documentation was provided due to a building collapse damaging all relevant
        documentation. Due to the entire month of December 2010 having all relevant
        documentation destroyed, the entire month is considered unsupported in the amount of
        $213,303 (Note: The payroll transactions tested were already fully burdened with agreed
        upon rates between AECOM and the United States Agency for International
        Development [USAID]; therefore, an unburdened amount is not provided)
       ODCs: For a total of 16 instances, no documentation was provided due to a building
        collapse or subsequent misfiling of documentation. These instances resulted in
        unsupported costs in the burdened amount of $112,601. The unburdened costs associated
        with these instances are $98,773
       ODCs: For one instance, proper approval documentation was not provided because the
        signed voucher could not be located due to a building collapse. This instance did not
        result in unsupported costs as a copy of the invoice was provided
       Program Costs: For one instance, no documentation was provided due to a building
        collapse damaging all relevant documentation. This instance resulted in burdened
        unsupported costs of $11. The unburdened costs associated with this instance are $10
       Travel and Per Diem: For nine instances, no documentation was provided due to a
        building collapse damaging all relevant documentation. These instances resulted in
        burdened unsupported costs of $1,818. The unburdened costs associated with these
        instances are $1,594


                                               16
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


       Travel and Per Diem: For one instance, sufficient documentation was unable to be
        provided due to the misfiling of documentation. A voucher edit report was provided;
        however, it was insufficient to conclude on the transaction and the original voucher or
        other supporting documentation could not be provided. This instance resulted in
        burdened unsupported costs of $9. The unburdened costs associated with this instance
        are $8.

Cause: AECOM contracted with a company to store archived hard-copy documentation and the
contractor facility’s roof collapsed, destroying original hard-copy support. In the course of the
contractor relocating the documentation that was not destroyed, they misfiled some
documentation. At the time of this contract, AECOM did not have adequate processes in place
to ensure documentation was otherwise maintained in the event that the original hard copy
documentation was destroyed or misplaced.

Criteria: Per Federal Acquisition Regulations (FAR), Subpart 31.2, Contracts With Commercial
Organizations, Section 31.201-2 (d), “Determining Allowability”:

       “A contractor is responsible for accounting for costs appropriately and for maintaining
        records, including supporting documentation, adequate to demonstrate that costs claimed
        have been incurred, are allocable to the contract, and comply with applicable cost
        principles in this subpart and agency supplements. The contracting officer may disallow
        all or part of a claimed cost that is inadequately supported.”

Effect: The conditions noted above resulted in questioned costs that may be determined to be
unallowable by the contracting officer. There is an increased likelihood that other costs incurred
are unsupported because relevant documentation was not provided or available. Loss of records
disrupts the funding agency’s oversight and audit process.

Recommendation #1: Kearney recommends that AECOM either provide supporting
documentation to the contracting officer or return the questioned amount of $313,688 ($327,742
burdened) based on lack of supporting documentation.

Kearney notes that since the period of this contract, it became AECOM policy to digitize all
supporting documentation in addition to any original hard-copy files retained and archived off-
site. As such, Kearney offers no additional recommendation related to the control weakness that
was present during the period under audit, as digitizing records to be stored separately from
original hard-copies should prevent this weakness from recurring in future awards.

Management’s Response:

During the implementation of the ASOP contract, AECOM policy required the original copies of
all financial documents to be sent to the Home Office and for a copy to be retained in the Field
Office. However, once a project is complete, AECOM requires that the copies retained in the
Field Office be destroyed in order to avoid duplication and additional charges to the U.S.
government. Upon project completion, AECOM then sends all documentation to the renowned
document storage facility Recall for storage. Unfortunately, Recall suffered a documented


                                                17
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                              AECOM International Development, Inc.
                                                                                                         Audit Report


building collapse which resulted in the loss of certain project files; this was beyond the control of
AECOM. However, since the end of the ASOP contract, AECOM has implemented its
proprietary One Source system for all projects which retains electronic copies of documents and
will protect documentation in the case of a storage collapse.

Auditor’s Evaluation of Management’s Response:

Kearney understands that the building collapse was beyond the control of AECOM. However,
AECOM was responsible for ensuring that reimbursed costs are supported. As AECOM does
not appear to disagree with the condition, Kearney reaffirms that the finding remains unchanged.




                                                 18
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


                                     Significant Deficiencies

                   ASOP NFR 2014-2: Ineffective Controls over Payments

Condition: Inadequate AECOM internal processes over ASOP transactions occurring between
July 5, 2009 and January 31, 2012 resulted in a significant deficiency and total unburdened
unsupported costs of $17,382 ($19,817 burdened), which are described in further detail below.
The dollar values reported in this finding are whole USDs and the fully burdened amounts are
calculated using the rates per AECOM’s NICRA and other relevant fees to the contract.

Relevant supporting documentation pertaining to Sub-contracts and ODCs was not properly
reviewed and approved by supervisory AECOM personnel in the following instances:

      Sub-Contracts: For one instance, the invoice amount was unable to be re-calculated
       based on documentation provided. A pro-rated amount was included on the invoice;
       however, the amount was not mathematically accurate and there was no evidence of
       review/investigation by AECOM, resulting in burdened unsupported costs of $185. The
       unburdened costs associated with this instance are $162
      Sub-Contracts: For another instance, the labor and equipment rates on the invoice did
       not match the labor and equipment rates per the sub-contract agreement and the invoice
       was not properly approved, resulting in burdened unsupported costs of $127. The
       unburdened costs associated with this instance are $111
      ODCs: For one instance, evidence of receipt of goods was not provided, resulting in
       unsupported costs of $16,530. The unburdened costs associated with this instance are
       $14,500
      ODCs: For another instance, the price per the invoice differed from the amount per the
       agreement. These costs are related to fuel and while the agreement indicated that the
       price is subject to change, the agreement also stated that the costs would be re-evaluated
       every two to three months and there was no evidence provided of this re-evaluation or
       any evidence of AECOM’s investigation into a change in price prior to payment,
       resulting in burdened unsupported costs of $2,975. The unburdened costs associated with
       this instance are $2,609.

Cause: Controls that were in place for the program official and accounting personnel to review
and approve invoices for accuracy, appropriateness, and receipt of goods/services prior to
payment did not operate effectively.

Criteria: Per FAR, Subpart 31.2, Costs with Commercial Organizations, Section 31.201-2,
“Determining Allowability”:

       “(d) A contractor is responsible for accounting for costs appropriately and for maintaining
        records, including supporting documentation, adequate to demonstrate that costs claimed
        have been incurred, are allocable to the contract, and comply with applicable cost
        principles in this subpart and agency supplements. The contracting officer may disallow
        all or part of a claimed cost that is inadequately supported.”



                                                19
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


Effect: Potential overstatement of costs based on improper payments. As such, the government
could be overcharged.

Recommendation #2: Kearney recommends that AECOM provide the necessary supporting
documentation to the contracting officer or return the unsupported amount of $17,382 ($19,817
burdened), based on lack of supporting documentation or explanations for the variances
identified.

Recommendation #3: Kearney recommends that AECOM ensures that proper reviews and
approvals are performed for the program official and accounting personnel to review and
approve invoices for accuracy, appropriateness, and receipt of goods/services prior to payment.

Management’s Response:

AECOM provided evidence that the ODC goods (10 laptops) in question from Recommendation
#2 are included in the AECOM inventory list and the AECOM disposition list, both of which
were approved by USAID. These documents should be considered as evidence of receipt of
goods. In regards to the ODC fuel charges, it quickly became apparent that fuel costs in Kabul at
that time were changing on an almost daily basis. As a result, merchants refused to make long-
term contracts which rendered meaningless any reevaluations at two or three month
intervals. There was no alternative to purchasing fuel on the local market at the most reasonable
possible price on an as needed basis. We did not have adequate facilities for long-term storage
of fuel nor would these have complied with our safety standards.

Auditor’s Evaluation of Management’s Response:

For the first ODC instance in the condition, Kearney acknowledges receipt of inventory and
disposition lists containing a total of 50 laptops. However, from a control perspective, we are
unable to accept such documentation as adequate evidence of receipt of goods (first ODC
instance) because we are unable to determine that the goods were received and added to
inventory prior to payment. Further, we are unable to accept the inventory and disposition lists
provided for the purposes of determining the appropriateness of the claimed costs because we
were unable to uniquely identify the 10 laptops for which the payment occurred from the listing
of 50 laptops, thus the questioned costs remain.

For the second ODC instance in the condition relating to fuel changes, Kearney understands the
nature of the procurement and that the agreement with the vendor that stated the costs were
subject to change with the market. However, the only documentation provided was a contract
that had fuel costs that were well below the actual costs incurred, with no additional
documentation to support the accuracy of invoices or AECOM’s evaluation of fuel prices to
support the reasonableness of the costs prior to payment of the invoice. As such, we could not
conclude that the costs were accurate and appropriate.

No responses were provided by management for the sub-contracts instances.

Therefore, Kearney reaffirms the finding remains unchanged.


                                                20
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                            AECOM International Development, Inc.
                                                                                                       Audit Report


                                Significant Deficiencies (cont’d)

     ASOP NFR 2014-3: Ineffective Review for Insurance Premiums Incurred (Repeat
                                      Finding)

Condition: AECOM internal processes did not produce or retain sufficient documentation
related to insurance premium payments for ASOP transactions occurring between July 5, 2009
and January 31, 2012, resulting in a significant deficiency and unburdened questioned costs
totaling $112,114 ($127,810 burdened), which are described in further detail below. The dollar
values reported in this finding are whole USDs and the fully burdened amounts are calculated
using the rates per AECOM’s NICRA and other relevant fees to the contract.

For five instances of ODCs, AECOM did not provide sufficient documentation, specifically
payroll and personnel records, to support the insurance premium costs incurred for employees
associated with the Defense Base Act (DBA) and Accidental Death and Dismemberment
(AD&D). In all instances, the insurance policy and invoices were provided.

   In two instances related to DBA insurance, labor supporting schedules and a DBA audit
    summary performed at the end of each year to adjust estimated costs to actual was provided;
    however, the labor supporting schedules did not reconcile to the amounts per the DBA audit
    summary. The labor supporting schedules included all hours charged to the ASOP project by
    eligible employees and the DBA audit summary adjusted those hours to only include hours
    that employees were at post and eligible for the DBA insurance. The DBA audit summary
    did not reasonably explain the hour adjustments and additional support to substantiate the
    adjusted hours could not be provided. Further the DBA audit summary included a gross
    miscalculation of the salary amount for one employee that was not detected upon review.
    This condition resulted in burdened unsupported costs of $9,030, which is the re-calculated
    difference resulting from the unsupported hours adjustments. The unburdened costs
    associated with this instance are $7,921
   In one instance related to DBA insurance, a DBA remuneration estimate was provided to
    support the amount posted to the general ledger. The DBA charge was an estimate for the
    year ahead based on a projection done by the Contract Administrator and the budget;
    however, support behind the estimation and methodology was not provided, including the
    calculation of the projection, the budget, or prior year comparisons. This condition resulted
    in burdened unsupported costs of $32,962, which is the full sampled amount. The
    unburdened costs associated with this instance are $28,914
   In two instances related to AD&D insurance, a spreadsheet was provided showing the
    number of eligible employees and an estimated annual payroll amount; however, there was
    not sufficient support provided to validate the number of employees or the methodology for
    the estimation of the annual payroll amount. In one of these instances, the invoice amount
    also did not reconcile to the amount recorded in the General Ledger Detail. This condition
    resulted in burdened unsupported costs of $85,818, which is the full sampled amount. The
    unburdened costs associated with this instance are $75,279.




                                               21
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


Cause: Calculations of eligible hours or payroll amounts to derive insurance premium costs
were not explained or clearly supported by labor schedules during the course of the adjustment
process. Implemented procedures were not designed to retain a full audit trail.

Criteria: Per FAR, Subpart 31.2, Contracts With Commercial Organizations, Section 31.201-2
(d) “Determining Allowability”:

      “A contractor is responsible for accounting for costs appropriately and for maintaining
       records, including supporting documentation, adequate to demonstrate that costs claimed
       have been incurred, are allocable to the contract, and comply with applicable cost
       principles in this subpart and agency supplements. The contracting officer may disallow
       all or part of a claimed cost that is inadequately supported.”

Effect: Potential misstatement of costs based on improper payments. As such, the government
could be overcharged.

Recommendation #4: Kearney recommends that AECOM either provide the necessary
supporting documentation to the contracting officer or return the questioned amount of $112,114
($127,810 burdened), based on lack of supporting documentation.

Recommendation #5: Kearney recommends that AECOM ensures that insurance premium cost
adjustment calculations are fully explained and supported by clear payroll and personnel records
so that accurate management reviews can be conducted over these adjustments. Calculations of
eligible hours or payroll amounts to derive insurance premium costs should be clearly supported
by labor schedules during the course of the adjustment process to retain a full audit trail of the
costs incurred.

Management’s Response:

In regards to the DBA claim, the estimated amount of $28,000 has been fully credited to the
project at the time of audit in October 2012 and scheduled to be refunded to USAID in our final
invoice. For the questioned AD&D payment, the calculation for the premium is based on the
estimated amount of employees hired by that date. The closest date of actual payroll shows 87
people versus 82 used for the estimation and 338 actual people versus 328 estimated in the other
case. The estimation in both cases had less people than the actual, thus there were no
overcharges to the U.S. Government. The estimation was very close to the reality because it was
based on the estimated staffing plan generated by Project Manager and the Field Office team.

Auditor’s Evaluation of Management’s Response:

To clarify, the audit referenced by AECOM management is related to an internal DBA audit
conducted during October 2012 and is not a part of the ASOP SPFS audit conducted by Kearney.
Kearney commends AECOM for initializing the credit for the amount of $28,000 for the DBA
claim; however, as the final invoice has not yet been issued to USAID, these costs remain
unsupported in our report until the final invoice is issued. Also, this information related to the



                                                22
                                             Office of the Special Inspector General for Afghanistan Reconstruction
                                                                           AECOM International Development, Inc.
                                                                                                      Audit Report


credit was not made aware to Kearney during fieldwork. Lastly, the $28,000 credit estimated by
AECOM does not cover our unburdened DBA insurance questioned amount of $36,835.

For the AD&D unsupported costs, Kearney understands that the estimated costs were lower than
the actual, thus resulting in lower costs billed to the government; however, no documentation
was provided to support how the estimation was calculated or to support the actual costs
incurred. Without this documentation, Kearney is unable to verify the accuracy of either the
estimated costs or the actual costs, whether under- or over-reported. Therefore, Kearney
reaffirms the finding remains unchanged.




                                              23
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                            AECOM International Development, Inc.
                                                                                                       Audit Report


                                       Non-Compliances

                ASOP NFR 2014-4: Non-Compliance with Contract Clause

Condition: AECOM internal processes did not produce or retain sufficient documentation
related to USAID approval for Non-Expendable Property for ASOP transactions occurring
between July 5, 2009 and January 31, 2012, resulting in an instance of non-compliance with the
contract terms and unburdened questioned costs totaling $11,900 ($13,556 burdened), which are
described in further detail below. The dollar values reported in this finding are whole USDs, and
the fully burdened amount is calculated using the rates per AECOM’s NICRA and other relevant
fees to the contract.

For one sampled ODC transaction related to purchases of non-expendable property, AECOM did
not provide sufficient documentation to evidence that USAID approved the purchase, as required
by the contract terms. A procurement plan was submitted to USAID for approval, listing a
variety of non-expendable property items to be purchased, and USAID approved that
procurement plan; however, one specific piece of property purchased, a server, was not included
in the procurement plan. The sampled transaction procured two servers and the approved
procurement plan included only one server. Thus, the unit cost of one server is questioned
resulting in burdened unsupported costs of $13,556. The unburdened costs associated with these
instances are $11,900.

Cause: At the time of the procurement plan, not all non-expendable property required for each
district may have been known, and subsequent approval was either not performed or not retained
in AECOM’s records.

Criteria: Per the AECOM Contract, Section H.10b, “Property”: “All purchases of
nonexpendable property must be approved for purchase by the Contracting Officer.”

Per FAR, Subpart 31.2, Contracts With Commercial Organizations, Section 31.201-2 (d)
“Determining Allowability”:

      “A contractor is responsible for accounting for costs appropriately and for maintaining
       records, including supporting documentation, adequate to demonstrate that costs claimed
       have been incurred, are allocable to the contract, and comply with applicable cost
       principles in this subpart and agency supplements. The contracting officer may disallow
       all or part of a claimed cost that is inadequately supported.”

Effect: Non-compliance with contract terms, which can negatively impact USAID’s oversight of
the award. Non-compliances may also result in costs that are potentially unallowable.

Recommendation #6: Kearney recommends that AECOM provide the necessary supporting
documentation to the contracting officer or return the questioned amount of $11,900 ($13,556
burdened), based on lack of approval.




                                               24
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                            AECOM International Development, Inc.
                                                                                                       Audit Report


Recommendation #7: Kearney recommends that AECOM ensures that all non-expendable
property is approved by USAID, by ensuring that all known property needs are included in the
procurement plan, or subsequent approvals are performed and retained as the need for additional
property is identified. It is suggested AECOM do this through distribution of a detailed
procedural manual and training.

Management’s Response:

The servers and the generator were included in the approved realigned budget under
modification number 1; therefore, no additional approval was needed.

Auditor’s Evaluation of Management’s Response:

Kearney has revised the draft condition for which management response applied. Kearney
acknowledges receipt from the auditee of the approved realigned budget under modification
number 1 to the contract with corresponding detail of individual equipment items to be procured.
This documentation was provided after the end of field work but was considered for the final
report. However, all support provided showed only one server being approved and our sample
included two servers. Therefore, the finding remains as it pertains to one server.




                                               25
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


                                   Non-Compliances (cont’d)

        ASOP NFR 2014-5: Non-Compliance with Federal Acquisition Regulations

Condition: AECOM internal processes did not produce or retain sufficient documentation
related to the disposition of non-expendable property for ASOP transactions occurring between
July 5, 2009 and January 31, 2012, resulting in one collective instance of non-compliance with a
clause of the FAR that was specifically referred to in the contract, and which is described in
further detail below.

For one sampled ODC transaction related to non-expendable property costs, AECOM did not
maintain documentation with sufficient detail to uniquely identify the non-expendable property
selected for testing as being included on the property disposition schedule provided to USAID.
A property disposition schedule was provided and USAID had approved the schedule; however,
we were unable to identify that two servers procured within one sampled non-expendable
property purchase were included. The disposition schedule provided showed the disposition of
servers at a unit cost of $750, and the unit cost of the servers sampled was $11,900.

Note that this is the same sample of servers as in ASOP NFR 2014-4. Except for as described in
ASOP NFR 2014-4, we were otherwise able to determine that the property procurements were
appropriate and supported, and thus this finding does not result in questioned costs.

Cause: AECOM’s control to maintain an up-to-date property listing of the non-expendable
property acquired under the contract was not operating effectively. In these instances, additional
non-expendable property was acquired after an initial bulk procurement, and these additions
were not properly tracked through disposition.

Criteria: FAR Clause 52-245-1 Government Property (incorporated by reference in contract)
states, in part:

“(j) Contractor inventory disposal. Except as otherwise provided for in this contract, the
Contractor shall not dispose of Contractor inventory until authorized to do so by the Plant
Clearance Officer.…”

   “(ii) The Contractor shall list, on Standard Form 1428, Inventory Disposal Schedule,
   property that was not used in the performance of other Government contracts under
   paragraph (j)(2)(i)(A) of this clause, property that was not purchased under paragraph
   (j)(2)(i)(B) of this clause, and property that could not be returned to a supplier under
   paragraph (j)(2)(i)(C) of this clause….”

 “(3) Inventory disposal schedules.
   “(i) The Contractor shall use Standard Form 1428, Inventory Disposal Schedule, to
   identify—
     (A) Government-furnished property that is no longer required for performance of this
     contract, provided the terms of another Government contract do not require the
     Government to furnish that property for performance of this contract;


                                                26
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                             AECOM International Development, Inc.
                                                                                                        Audit Report


     (B) Contractor-acquired property, to which the Government has obtained title under
     paragraph (e) of this clause, which is no longer required for performance of that contract;
     and
     (C) Termination inventory.
   (ii) The Contractor may annotate inventory disposal schedules to identify property the
   Contractor wishes to purchase from the Government.
   (iii) Unless the Plant Clearance Officer has agreed otherwise, or the contract requires
   electronic submission of inventory disposal schedules, the Contractor shall prepare separate
   inventory disposal schedules for—
     (A) Special test equipment with commercial components;
     (B) Special test equipment without commercial components;
     (C) Printing equipment;
     (D) Information technology (e.g., computers, computer components, peripheral equipment,
     and related equipment);
     (E) Precious metals;
     (F) Nonnuclear hazardous materials or hazardous wastes; or
     (G) Nuclear materials or nuclear wastes.
   (iv) The Contractor shall describe the property in sufficient detail to permit an understanding
   of its intended use. Property with the same description, condition code, and reporting location
   may be grouped in a single line item.
 (4) Submission requirements. The Contractor shall submit inventory disposal schedules to the
 Plant Clearance Officer no later than—
   (i) 30-days following the Contractor’s determination that a Government property item is no
   longer required for performance of this contract;
   (ii) 60 days, or such longer period as may be approved by the Plant Clearance Officer,
   following completion of contract deliveries or performance; or
   (iii) 120 days, or such longer period as may be approved by the Termination Contracting
   Officer following contract termination in whole or in part….”

 “(7) Storage.
   (i) The Contractor shall store the property identified on an inventory disposal schedule
   pending receipt of disposal instructions. The Government’s failure to furnish disposal
   instructions within 120 days following acceptance of an inventory disposal schedule may
   entitle the Contractor to an equitable adjustment for costs incurred to store such property on
   or after the 121st day.”

Effect: Non-compliance with regulations, which can negatively impact USAID’s oversight of
the award. Non-compliances may also result in costs that are potentially unallowable and
potential misuse or theft of government property.

Recommendation #8: Kearney recommends that AECOM ensures controls are operating
effectively so that non-expendable property listings are up-to-date with all procurements specific
to each contract, all non-expendable property is properly disposed of and disposition
documentation required to be submitted to USAID is complete. It is suggested AECOM do this
through the distribution of a detailed procedural manual and training.



                                                27
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                            AECOM International Development, Inc.
                                                                                                       Audit Report


Management’s Response:

The mentioned properties are included in the disposition list provided to the audit firm. The 100
KVA generator was mislabeled at the time of inventory entry and AECOM has provided
supporting documentation that the generator is indeed the same one. Evidence was also provided
of a 5.0 KVA generator questioned, which was included both in the inventory list and the
disposition list approved by USAID.

Auditor’s Evaluation of Management’s Response:

Kearney has revised the draft condition for which management response applied. Kearney
acknowledges receipt from the auditee of the revised disposition list with individual equipment
items. This documentation was provided after the end of field work but was considered for the
final report. However, the disposition schedule provided showed the disposition of servers at a
unit cost of $750, and the unit cost of the servers sampled was $11,900. Therefore, the finding
remains as it pertains to the servers.




                                               28
                    Office of the Special Inspector General for Afghanistan Reconstruction
                                                  AECOM International Development, Inc.
                                                                             Audit Report




APPENDIX A – PRIOR AUDIT FINDINGS AND STATUS




                     29
                                                         Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                       AECOM International Development, Inc.
                                                                                                                  Audit Report


Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) identified
findings stated in prior audit reports that could have a material effect on the Special Purpose
Financial Statement. Kearney then inquired about whether AECOM International Development,
Inc. implemented corrective action plans (CAPs) to address the findings and determined the
status of the CAPs. Kearney identified the following prior audit report:

Financial Audit of Costs Incurred by Afghan Integrated Support Services under Contract No.
W52P1J-11-C-0015

The following represents a summary of the findings related to Afghan Integrated Support
Services1 (AISS), as reported by Mayer Hoffman McCann P.C. in their report, dated August 16,
2013:

No     Previously Reported Findings                  Kearney’s Conclusion on Current Status
1  Lease of land in the amount of $212,504        AISS management disagreed with the finding
   and subcontract labor in the amount of         and as such did not provide corrective action
   $5,139 were incorrectly recorded and           plans. Kearney noted that AISS is awaiting a
   claimed as reimbursable costs of the           determination from the contracting officer (CO).
   Central Warehouse Facility (CWF).              Kearney cannot determine the adequacy of
                                                  nonexistent corrective action plans and as such
                                                  concludes that adequate corrective action was
                                                  not yet taken.
2       AISS subcontracted the construction of AISS management disagreed with the finding
        the CWF to one of its affiliate partners. and as such did not provide corrective action
        The subcontract was on a fixed fee basis plans. Kearney noted that AISS is awaiting a
        totaling $2,361,926. However, the         determination from the CO. Kearney cannot
        subcontract was not competitively bid     determine the adequacy of nonexistent
        and there was no justification provided   corrective action plans and as such concludes
        for awarding the contract on a sole       that adequate corrective action was not yet
        source basis.                             taken.
3       13 instances were noted in which          AISS management disagreed with the finding
        adequate supporting documentation was and as such did not provide corrective action
        not provided for micro-purchases of       plans. Kearney noted that AISS is awaiting a
        spare parts, resulting in unsupported     determination from the CO. Kearney cannot
        costs of $17,618.                         determine the adequacy of nonexistent
                                                  corrective action plans and as such concludes
                                                  that adequate corrective action was not yet
                                                  taken.




1
    Per the audit report referenced, AECOM Government Services, Inc. was a party in the AISS joint venture.



                                                          30
                                             Office of the Special Inspector General for Afghanistan Reconstruction
                                                                           AECOM International Development, Inc.
                                                                                                      Audit Report


No     Previously Reported Findings              Kearney’s Conclusion on Current Status
4  A total of $272,120 was deemed             AISS management disagreed with the finding
   unsupported based on lack of supporting    and as such did not provide corrective action
   documentation for the Defense Base Act     plans. Kearney noted that AISS is awaiting a
   insurance costs claimed.                   determination from the CO. Kearney cannot
                                              determine the adequacy of nonexistent
                                              corrective action plans and as such concludes
                                              that adequate corrective action was not yet
                                              taken. Further, based upon our audit procedures,
                                              Kearney identified this as a repeat finding.
                                              Refer to ASOP NFR 2014-3 in the Schedule of
                                              Findings and Responses.
5   The CWF was not built in accordance       AISS management disagreed with the finding
    with the approved floor plan and the      and as such did not provide corrective action
    original cost proposal. Rather, the CWF plans. Kearney noted that AISS is awaiting a
    was built based on an amended floor       determination from the CO. Kearney cannot
    plan and revised cost proposal that were determine the adequacy of nonexistent
    never submitted to the Department of      corrective action plans and as such concludes
    Defense for approval.                     that adequate corrective action was not yet
                                              taken.
6   Spare parts in the warehouse were         AISS management disagreed with the finding
    tagged with a computerized label.         and as such did not provide corrective action
    However, the identification code used     plans. Kearney noted that AISS is awaiting a
    does not identify the source of the spare determination from the CO. Kearney cannot
    part, i.e., whether it was purchased      determine the adequacy of nonexistent
    under the contract, donated by the U.S.   corrective action plans and as such concludes
    Government, or transferred from the       that adequate corrective action was not yet
    prior contract.                           taken.




                                              31
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
